                                                    NATIONAL SCIENCE FOUNDATION
     f ' ? !                                         OFFICE OF INSPECTOR GENERAL

      .                                                OFFICE OF INVESTIGATIONS
      4
                                               CLOSEOUT MEMORANDUM
       0
          ON   ,   A+0


     Case Number: A09070066                                                                    Page 1 of 1



           We assessed an allegation of a pattern of plagiarism in proposals received from a PI' at a small
           university. We examined eleven proposals2 submitted by this PI for a five year period, and
           occasionally found a de minimus amount of text that may have been copied from the works of
           others. No substantive evidence for a pattern of plagiarism or for plagiarism in a single proposal
           is evident from our examination.

           Accordingly, this case is closed.




                                                                                                             I




                          /




II                                                                                                               111
 NSF OIG Form 2 (11102)
